<html>
<title> - FIELD HEARING IN MISSOURI: MISSOURI RIVER MANAGEMENT: DOES IT MEET THE NEEDS OF SMALL BUSINESS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   FIELD HEARING IN MISSOURI: MISSOURI RIVER 
                    MANAGEMENT: DOES IT MEET THE NEEDS 
                    OF SMALL BUSINESS?
=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS

                             UNITED STATES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             AUGUST 21, 2013

                               __________

                               [GRAPHIC] [TIFF OMITTED] 
                               

            Small Business Committee Document Number 113-035
              Available via the GPO Website: www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
82-514                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                       BLAINE LUETKEMER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1

                               WITNESSES

Kathy Kunkel, Clerk, Holt County, Oregon, MO.....................     3
Lanny Frakes, Owner, L & R Farms, Rushville, MO..................     5
Jody Farhat, Chief, Missouri River Management Division, 
  Northwestern Division, United States Army Corps of Engineers, 
  Omaha, NE......................................................     7
Jason Gregory, Owner, Gregory Farm, Hemple, MO...................     9
Joel Euler, Attorney, South Side Levee District, Troy, KS........    11

                                APPENDIX

Prepared Statements:
    Kathy Kunkel, Clerk, Holt County, Oregon, MO.................    31
    Lanny Frakes, Owner, L & R Farms, Rushville, MO..............    34
    Jody Farhat, Chief, Missouri River Management Division, 
      Northwestern Division, United States Army Corps of 
      Engineers, Omaha, NE.......................................    37
    Jason Gregory, Owner, Gregory Farm, Hemple, MO...............    41
    Joel Euler, Attorney, South Side Levee District, Troy, KS....    44
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


  MISSOURI RIVER MANAGEMENT: DOES IT MEET THE NEEDS OF SMALL BUSINESS?

                              ----------                              


                       WEDNESDAY, AUGUST 21, 2013

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:16 a.m., in St. 
Joseph City Hall, 1100 Frederick Avenue, St. Joseph, Missouri, 
Hon. Sam Graves [chairman of the Committee] presiding.
    Present: Representative Graves.
    Chairman Graves. I would like to thank everyone for being 
here today, particularly to our witnesses. We are obviously 
going to discuss the implications of the Missouri River 
management and how that affects small businesses.
    This is an official field hearing with the Small Business 
Committee, and as Chairman of the House Small Business 
Committee I do encourage field hearings throughout the United 
States with our members, because it does allow members to get 
outside of that bubble we call 17 square miles of logic-free 
environment, which is Washington, D.C., and they get a chance 
to hear the real concerns of small businesses and how they 
operate in the real economy.
    From the beginning of the late 19th century, the Federal 
Government has taken an interest in developing our nation's 
waterways in order to maximize the economic benefits of these 
resources to the United States. The original federally 
authorized purpose of the Missouri River System was to 
facilitate navigation or navigable waters for interstate 
commerce. Later, flood prevention, water supply, irrigation and 
hydropower were added to the mix, again for the purposes of 
maximizing the economic benefits of the river.
    Unfortunately, managing the river for economic benefit has 
become less important than facilitating other objectives of 
little or dubious economic value.
    Today, the lower Missouri River is often closed to 
commercial navigation, reducing the opportunities for small 
businesses to find the most cost-effective means for shipping 
their goods. In addition, Corps programs to create shallow-
water habitat for fish, the pallid sturgeon in particular, and 
the proposed Spring Pulse, could undermine the goal of flood 
prevention.
    Some claim that these are unavoidable tradeoffs between 
balancing the potential economic benefits of the Missouri River 
System with the goal of protecting the environment. I believe 
that such thinking misses the point. Limiting the economic 
utility of the river system based on dubious science doesn't 
promote any objective.
    What small business and rural community stakeholders need 
is for management decisions to be based on accurate scientific 
and engineering data. Unfortunately, all too often, decisions 
with significant system-wide impacts appear to be based on a 
whim. This reduces certainty and makes it difficult for small 
businesses that rely on the Missouri River System for their 
economic well-being to plan accordingly.
    Before I yield for our opening statements, I would like to 
acknowledge the presence of the U.S. Army Corps of Engineers, 
which are here. The Committee invited both the Corps and the 
Fish and Wildlife Service to attend, but as we can see, only 
the Corps decided to testify.
    This is unfortunate for many reasons, none more so than the 
fact that many of the regulations that complicate multipurpose 
management of the Missouri River System originate or are 
influenced by policies that are pursued by the Fish and 
Wildlife Service. I think their absence speaks volumes about 
their lack of concern for small businesses and the rural 
communities that the river affects.
    With that, I look forward to hearing from all of our 
witnesses.
    I would also like to kind of explain the way the light 
system works. The way we do it is each person has 5 minutes to 
give their opening statement, and when you get down to 1 minute 
it turns yellow. The fact of the matter is, if you have 
something to say, I want to hear it, so don't worry too much 
about getting thrown out of the room if you go over your 5 
minutes because it is not going to happen. This is about 
hearing what folks have to say and about managing the river, 
and that is what the importance of this is. So we have to do it 
for Committee rules, so we have to have the lights. But 
regardless, I want you to say it if you have anything to say.
    So with that, we will start out with introductions. What we 
will do is I will introduce each of our witnesses and they can 
give their opening statement, and then we will move to the next 
one, and then we will go on to questions.
    But our first witness today is Ms. Kathy Kunkel from 
Oregon, Missouri. Kathy currently serves as the Clerk of Holt 
County. Among her responsibilities and goals is promoting 
economic development in the county, especially small business 
development. She has also worked with other rural communities 
in discussing the impacts of Missouri River management in the 
communities and economic development efforts.
    Ms. Kunkel, again, thank you for appearing today, as you 
have before, and we look forward to your testimony.

    STATEMENTS OF KATHY KUNKEL, CLERK, HOLT COUNTY, OREGON, 
MISSOURI; LANNY FRAKES, OWNER, L&R FARMS, RUSHVILLE, MISSOURI; 
 JODY FARHAT, CHIEF, MISSOURI BASIN WATER MANAGEMENT DIVISION, 
 NORTHWESTERN DIVISION, UNITED STATES ARMY CORPS OF ENGINEERS, 
 OMAHA, NEBRASKA; JASON GREGORY, OWNER, GREGORY FARMS, HEMPLE, 
  MISSOURI; JOEL EULER, ATTORNEY, SOUTH SIDE LEVEE DISTRICT, 
                          TROY, KANSAS

                   STATEMENT OF KATHY KUNKEL

    Ms. Kunkel. Thank you, Mr. Chairman. I appreciate the 
opportunity to come before the Committee today and be able to 
provide for you, once again, a voice for the citizens of Holt 
County, Missouri, as well as other rural communities that are 
impacted by the Missouri River's management in our region. So I 
will take a couple of minutes to provide my testimony.
    I have the privilege to come before this body representing 
the people of Holt County, Missouri. I am honored to share with 
you the concerns of small businessmen and women who take great 
pride in operating their farms and businesses in a rural area.
    Situated between the urban hubs of Omaha and Kansas City, 
Holt County is about as rural as it gets. Less than 4,700 
people call Holt County home. There are 500 miles of gravel 
roads and not one single stop light or flashing light in the 
entire county, including the towns. Everyone knows one another. 
It is small-town America at its best. Our small businesses 
range from local grocery stores to a 30-million-gallon ethanol 
plant. Each and every business in our area is dependent on the 
well-being of agriculture.
    Holt County has a wide floodplain, encompassing about 40 
percent of the county's 456 square miles. It holds highly 
productive farmland and five towns. At its widest point our 
floodplain stretches 12 miles from bluff to bluff. It is criss-
crossed by transportation corridors connecting Missouri with 
Iowa, Kansas, and Nebraska by interstate and rail. It also is 
home to Squaw Creek National Wildlife Refuge and Big Lake State 
Park, as well as a patchwork of farmland and homesteads dating 
back to early settlement.
    The 2011 flood brought a focused spotlight to the 
management practices of the United States Army Corps of 
Engineers and their responsibilities to the eight authorized 
purposes of the Missouri River. Holt County was devastated by 
the flooding that found water within our homes for up to 106 
days. Interstate 29 was closed for nearly four months, and in 
that time, small businesses that sat well outside of the 
floodplain were closed due to a lack of commerce. You simply 
cannot run a truck stop without interstate traffic. In one day, 
40 people from Holt County lost their jobs due to flooding on 
one of the highest hills in the county, miles from the 
floodwaters.
    County tax revenues are based on the economic viability of 
the communities within the county boundaries. Commercial and 
agricultural properties make up the real estate tax base. Those 
businesses provide income for housing. Retail sales of goods 
provide sales tax to support the county's services such as law 
enforcement and road maintenance. Closed businesses and lost 
crop production diminish sales tax returns, and county services 
suffer.
    The loss of Big Lake State Park ended tourist and vacation 
revenues, as well. In 2011, over $100 million worth of corn and 
soybeans were lost in Holt County. The lingering effects are 
seen from the car dealership to the grocery store as citizens 
have fewer dollars available for large and small purchases. 
County sales tax revenue continues to show a downturn even in 
2013, currently posting a 6 percent deficit.
    After the 2011 flood, the U.S. Census Bureau estimated that 
the number of people living in Holt County had shrunk by nearly 
300 citizens, now tallying 4,655. For our county, that is an 
exodus. Small businesses simply cannot survive in an atmosphere 
where the population is declining at a rapid rate, which in 
this case was 5.2 percent in a two-year period.
    As the population declines and farmlands are ruined by 
repetitive flooding, the Corps of Engineers continues to pursue 
purchasing land in Holt County for mitigation efforts designed 
to widen the river, create shallow-water habitat, and erode 
existing stabilized banks. Acquired land is then removed from 
the tax rolls, and the land is removed from agricultural 
production, further impacting the local economy and dollar 
turnover that occurs within the county.
    The Corps' water flow strategy has changed so significantly 
that recurrent flooding is commonplace in our area now. The 
Corps' focus has clearly shifted from a traditional flood 
control and navigation focus, which we saw for years after the 
bank stabilization and navigation project, to one of now an 
environmental experiment, totally unproven and now proven to be 
ineffective, while it has undermined agriculture in our 
communities and devastated small businesses.
    In Holt County, we have come together to explore what 
alternatives might be available to our citizens to once again 
bring our county to be a thriving place to live, work, and do 
business. The county's levee and drainage districts have been 
rebuilt using new designs providing protection for the land, 
homes, and businesses within their watershed areas. 
Partnerships have been formed between the varying districts to 
provide greater protection in times of high water. The county 
utilizes the National Flood Insurance Program to ensure that 
homes are built above the base flood elevation to limit flood 
damage. Numerous projects have been implemented, both publicly 
and privately, to increase the height of the railroad, 
roadways, and other essential infrastructure in an effort to 
avoid or limit future damages.
    A regional partnership is underway to provide strategic 
planning with the states of Missouri, Nebraska, Kansas, and the 
Iowa Tribe of Kansas and Nebraska situated at White Cloud, to 
plan for Missouri River management and small business needs for 
navigation, port access, railway connectivity, and interstate 
commerce.
    It is essential that the United States Army Corps of 
Engineers manage the Missouri River for flood control and 
navigation interests to allow for small businesses in our 
region to be able to survive. With the opening of the Panama 
Canal, our region is now ready to provide bulk grain and other 
products by barge to markets of the world. A United States 
Department of Transportation Marine Highway Designation, M-29, 
is crucial to establishing this region as a waterway 
transportation route. The Corps must provide a reliable level 
for navigation, which is necessary to minimize risk and make 
small businesses successful. A minimal risk of flooding is 
imperative for business expansion, crop production, and 
tourism.
    I appreciate your willingness to hear the voice of rural 
America's citizens today. I would encourage you to define the 
future of the Missouri River Basin with a focus on the 2011 
flood's lasting impacts on the agricultural community and small 
businesses of the lower Missouri River. Change in the 
management practices for the Missouri River Basin must come 
now, and with it must be a renewed focus on the people 
utilizing the bounty of the floodplain with a specific focus on 
flood control and navigation. Thank you.
    Chairman Graves. Thanks, Ms. Kunkel.
    Our next witness is Lanny Frakes. Mr. Frakes serves as the 
Vice President of the Missouri Levee and Drainage District 
Association, a statewide organization that helps represent 
landowners, small businesses and rural counties in issues 
involving the Missouri River management.
    Mr. Frakes, I want to thank you for coming in and I 
appreciate your testimony, look forward to hearing from you.

                   STATEMENT OF LANNY FRAKES

    Mr. Frakes. Thank you. Chairman Graves and members of the 
United States House Committee on Small Business, thank you for 
this opportunity to provide testimony regarding management of 
the Missouri River and the needs of small businesses. As Vice 
President of the Missouri Levee and Drainage District 
Association, I represent levee and drainage districts, 
businesses, associations, and individuals interested in the 
activities and issues surrounding the Missouri River and its 
tributaries. I understand the importance of this Committee's 
work as it relates to the protection of small businesses across 
our country. I am honored to have this opportunity to provide 
comments on behalf of the levee association's membership and 
fellow Missourians who are impacted by the operation of the 
Missouri River.
    The bottomlands along the Missouri River include thousands 
of acres of highly productive farmland. Many family farm 
businesses rely on levees constructed by landowners, levee 
districts, and the U.S. Army Corps of Engineers for protection 
from flooding. One hundred thousand acres of Missouri 
bottomland soil can produce enough calories to feed over 1 
million people for an entire year. This productive soil makes 
up the backbone of the local economy. As the bottomland farms 
succeed, so does the local economy. There are spillover impacts 
from the success of the farm businesses. Many small businesses 
benefit from the production and operation of bottomland farms. 
The purchases of tractors, trucks, and other machinery, along 
with labor and other inputs, have ripple effects throughout our 
economy.
    I want to be very clear: it is the productive soils and the 
land that provides the foundation for small business growth and 
success throughout our agricultural communities. Without the 
highly productive soil and land, the small businesses in the 
fruitful Missouri River bottoms would be far less successful. 
We have seen dramatic increases in farmland values over the 
past several years. According to the Federal Reserve Bank of 
Kansas City, first quarter farmland values in the Kansas City 
District have posted double-digit annual gains for three 
straight years. While the general economy has struggled, 
agriculture and small businesses tied to agriculture have held 
their own. Agriculture will likely be the industry leading our 
country out of its economic woes. It has held true in the past. 
This is why it is vitally important to keep our best soils in 
production, and this is why we should protect these soils from 
flooding.
    Flood control is vitally important to these businesses. 
Small businesses in the economic chain, from the farmer to the 
small businesses he impacts, rely on the U.S. Army Corps of 
Engineers to provide critical flood control along the Missouri 
River. Flooding has huge impacts on small businesses and the 
economy. Because floods are so devastating, flood control is 
one of the greatest needs for communities and small businesses 
impacted by Missouri River operations.
    Unfortunately, the U.S. Army Corps of Engineers no longer 
seems to share the same belief concerning the importance of 
flood control for the small businesses impacted by their 
operations. In fact, we rarely even hear the Corps talk about 
flood control. The term ``flood control'' has all but been 
stripped from their vocabulary. Instead of flood control, we 
now hear the Corps talk about flood risk reduction. The Corps 
of Engineers is working hard on programs designed to reduce the 
Federal Government's risk and responsibility associated with 
flooding and flood recovery. But there is very little focus on 
actually reducing the risk of flooding.
    The Corps' new approach to flood control has little to do 
with keeping the River between its banks. Their emphasis is on 
moving people and businesses out of the floodplain, buying 
productive farmland, setting back or removing levees, and 
allowing the river to run wild. This is not an approach to 
flood control. It is a recipe for disaster.
    We understand floods will happen, and we cannot control 
every flood. But the goal should be to keep the river between 
its banks and control flooding as much as possible. Even if we 
were able to remove all infrastructure from the floodplains--
homes, businesses, roads, power lines, pipelines, bridges and 
more--the remaining farmland is worth protecting with levees 
and other flood control projects.
    Members of the Missouri Levee and Drainage District 
Association have many concerns regarding the Corps' operation 
of the river. Shallow-water habitat projects, dike notching, 
the threat of a manmade spring rise each year and land 
acquisition programs top the list of our concerns. The Corps' 
levee inspection program and the FEMA levee certification 
program also concern our members and will have impacts on small 
business and the ability to provide proper flood control.
    Finally, it is our hope your Committee and the United 
States Congress will provide better oversight of the Corps of 
Engineer's activities. Federal agencies with no oversight from 
Congress have a long leash and a high level of arrogance. This 
has been the case with the ongoing shallow-water habitat 
projects. Even though the Missouri Clean Water Commission 
decided not to provide a 401 certificate, the Corps of 
Engineers has decided to dump dredged spoils from their 
projects directly into the Missouri River. We believe this 
shows a great lack of respect to the Missouri Clean Water 
Commission and the stakeholders who overwhelmingly opposed the 
soil dumping.
    The work of your Committee is very important. I appreciate 
your service to our nation and your willingness to hold this 
hearing here today. I hope you will encourage the Corps of 
Engineers to make flood control their number one priority and 
provide the protection the small businesses need to grow and 
prosper.
    The land and productive soils along the Missouri River is 
one of our country's greatest assets. Providing flood control 
to the land is critical to small businesses throughout the 
Missouri River Valley and the nation. The Missouri Levee and 
Drainage District Association is ready and willing to help you 
as we work together to protect our small businesses and grow 
our economy, and I thank you.
    Chairman Graves. Thanks, Mr. Frakes.
    Our next witness is Jody Farhat. Since 2009, Ms. Farhat has 
served as the Chief of the Missouri River Management Division 
of the Army Corps of Engineers, the Northwestern Division. 
Prior to her elevation to chief, Ms. Farhat served for 5 years 
in the Hydrologic Engineering Branch of the Corps' Omaha 
District, which is where I think I first became acquainted with 
you or we first got acquainted.
    Ms. Farhat, again, thank you for being here today. We 
appreciate it very much, and the Corps, for coming in today, 
and we look forward to your testimony.

                    STATEMENT OF JODY FARHAT

    Ms. Farhat. Thank you very much, Chairman. As you said, I 
am Jody Farhat. I am Chief of the Missouri River Basin Water 
Management Office, part of the Northwestern Division of the 
U.S. Army Corps of Engineers. I am pleased to be here today to 
discuss our roles and responsibilities, and efforts on managing 
the Missouri River Mainstem Reservoir System, and on the 
importance of the river to small businesses and rural 
communities.
    Over the past several years, the Missouri River Basin has 
experienced a wide range of climatic conditions, from the 
record runoff in the upper basin in 2011, to flash drought in 
2012. The Mainstem Reservoir System is comprised of six dam and 
reservoir projects; hydroelectric power plants; levees, both 
Federal and non-Federal; and a 735-mile navigation channel 
extending from Sioux City, Iowa to the mouth near St. Louis, 
Missouri. The Corps is charged with responsibly managing this 
complex system for eight authorized purposes: flood control, 
navigation, irrigation, hydropower, water quality control, 
water supply, recreation, and fish and wildlife enhancement. In 
addition, the operation of the system must also comply with 
other applicable Federal statutory and regulatory requirements, 
including the Endangered Species Act.
    Cycles of flooding and severe drought have always been a 
major part of basin hydrology. The reservoirs are designed to 
capture and store runoff from the upper basin in the spring of 
the year, providing flood protection for over 2 million acres 
of land in the floodplain. Water stored in the reservoirs is 
then utilized during the remainder of the year to serve the 
other seven authorized purposes. The Bank Stabilization and 
Navigation Project along the lower Missouri River keeps the 
channel from meandering and makes it more reliable for 
navigation, and an extensive system of levees from Omaha to St. 
Louis provides a measure of flood risk reduction to the 
adjoining developed land and nearby structures.
    The Missouri River Master Manual is the guide used by the 
Corps to regulate the six dams on the mainstem of the Missouri 
River. The Master Manual was revised in March 2004 to include 
more stringent drought conservation measures, and again in 2006 
to include technical criteria for a spring pulse from Gavin's 
Point Dam for the benefit of the endangered pallid sturgeon. 
Neither the 2004 nor the 2006 revisions to the Master Manual 
changed the volume of storage in the reservoir system reserved 
for flood risk reduction or the manner in which that storage is 
regulated.
    The construction and operation of the six mainstem 
reservoirs and other features of the system, along with the 
presence of Federal and non-Federal levees, reduced the extent 
of the natural floodplain and altered its ecosystem. Current 
regulation of the system in accordance with the Master Manual 
to serve authorized project purposes is dependent on the 
successful implementation of the U.S. Fish and Wildlife 
Service's 2003 Amended Biological Opinion, or BiOp.
    Implementation of the BiOp is accomplished through the 
Missouri River Recovery Program, which includes the following 
elements: habitat construction, including emergent sandbar 
habitat and shallow-water habitat; flow modifications; 
propagation and hatchery support; research, monitoring and 
evaluation; and adaptive management. Stakeholder participation 
in the recovery program is essential in order to ensure that 
public values are incorporated into the decision process. To 
that end, the Missouri River Recovery Implementation Committee 
has been established in accordance with Section 5018 of WRDA 
2007 and is comprised of a diverse group of advisory 
stakeholders.
    The Corps also considers input from affected interests and 
other agencies when making water management decisions to best 
serve the authorized purposes. An annual operating plan, or 
AOP, is developed each year based on the water control criteria 
contained in the Master Manual. Following the release of the 
draft AOP each fall, public meetings are held throughout the 
basin to review the plan, take comments, and answer questions. 
After taking into consideration comments received on the draft, 
the final is released, generally in December.
    Communication with affected stakeholders continues 
throughout the year via press releases, monthly basin update 
calls, information sharing through our website, and meetings 
with various stakeholders and interest groups.
    The Corps strongly supports small businesses in the work we 
do on the river, both for repair and maintenance of the Corps 
facilities, including the work that was done following the 
record 2011 flood, and construction activities required by the 
recovery program. For example, maintenance work and repair of 
the Bank Stabilization and Navigation Project is often 
contracted out to local small businesses. Even when the Corps 
does this work in-house using our hired labor crews, a mix of 
large and small businesses are still needed to provide 
material, equipment, and fuel. Because the greatest portion of 
this work and our offices are in rural areas, small businesses 
benefit. Completed and ongoing projects within the Missouri 
River Levee System have also been awarded to small businesses.
    And in addition, as we develop recovery projects, we 
coordinate with local land owners and levee districts upstream, 
downstream, and on the opposite bank from the proposed project 
to ensure we understand their concerns and requirements. It is 
important to note that the recovery projects are designed and 
constructed to be consistent with other uses of the river such 
as navigation and flood control. Many of these projects are 
built by small businesses.
    We remain committed to operating the Mainstem System to 
serve the authorized project purposes in a way that balances 
the competing needs of the basin and to meeting our 
responsibilities under the law. We will continue to work 
closely with you and all the basin stakeholders in that effort.
    We appreciate the opportunity to be here today and look 
forward to hearing the testimony of the small business leaders 
and any ideas they have to improve our service to the basin.
    Mr. Chairman, this concludes my testimony. I would be 
pleased to answer any questions.
    Chairman Graves. Thank you, Ms. Farhat.
    Next I would like to introduce Mr. Jason Gregory. Mr. 
Gregory is a fourth-generation farmer from Northwest Missouri, 
and his operation consists of row crops and some feeder cattle. 
He is testifying today on behalf of the Missouri Farm Bureau.
    Mr. Gregory, thanks for being here.

                   STATEMENT OF JASON GREGORY

    Mr. Gregory. Good morning, Mr. Chairman. Thank you for 
holding this field hearing.
    Like you said, I am here on behalf of the Missouri Farm 
Bureau Federation. I serve on the Buchanan County Farm Bureau 
Board of Directors, and my wife Beth and I serve on the state 
organization's Young Farmers and Ranchers Committee.
    It comes as no surprise to you that the management of the 
Missouri River is both complex and controversial. Widespread 
agreement is elusive as the U.S. Army Corps of Engineers 
attempts to manage for eight diverse congressionally authorized 
purposes.
    As you know, this area was hit hard by flooding in 2011 and 
is extremely dry as we speak. To be honest, I am not sure what 
a normal year is anymore.
    My comments will touch on six important topics to those who 
not only live along the Missouri River but are protected by the 
system of levees constructed over the past several decades.
    My first point is that the Water Resources Development Act, 
or WRDA, is critical to the future of our inland waterway 
system. Agricultural exports remain a bright spot, and it is 
important that we remain competitive in world markets. Other 
nations understand the concept of competitive advantage and are 
moving quickly to upgrade their ports and waterways. We need to 
modernize our locks and dams and provide shippers with 
assurances that the navigation channels on the Mississippi, 
Missouri, and other rivers are reliable. Congress needs to pass 
WRDA this year.
    Secondly, there must be adequate annual funding for the 
Bank Stabilization and Navigation Program. The Missouri River 
is highly engineered and thus requires ongoing maintenance. 
Flood control remains paramount, and Congress must appropriate 
sufficient funding to ensure the integrity of Federal and non-
Federal levees, flood gates, revetments, dikes and other 
structures. Levees not only protect highly productive crop land 
but also homes, businesses, and critical infrastructure such as 
roads, bridges, railroad tracks, sewage treatment facilities, 
water wells, and power plants.
    My third point is that common sense must prevail in the 
Missouri River Recovery Program. Stakeholders from throughout 
the Missouri River Basin are working with Federal and state 
agencies to address management challenges. Dialogue is useful 
but doesn't erase agendas. We will always fight the efforts of 
those who ignore the importance of protecting infrastructure by 
seeking to return the Missouri River to a perceived natural 
state of an era long gone. This includes objecting to taxpayer 
dollars being spent on unnecessary projects such as the 
Missouri River Ecosystem Restoration Plan and the Missouri 
River Authorized Purposes Study. We applaud your efforts and 
others, including Congressman Luetkemeyer, to defund these 
programs.
    My next point is the spring pulse should be permanently 
shelved. Scientific studies have failed to prove the benefit of 
these man-made spring rises, and there is no reason to 
experiment with flow modification.
    Fifth, the Congress should prevent soil dumping in 
conjunction with the creation of shallow-water habitat. 
Although not convinced of the scientific benefits of 
constructing chutes along the Missouri River under any 
circumstances, it makes no sense to pump mechanically excavated 
soil directly into the Missouri River. This ignores best 
management practices, contradicts enforcement actions taken by 
EPA and the Missouri Department of Natural Resources, and it 
creates a nutrient-rich sediment flowing to the Gulf of Mexico. 
We support Congressman King's efforts to prevent further soil 
dumping and are pleased his amendment was adopted by the House 
in its version of the Fiscal Year 2014 Energy and Water 
Appropriations Act.
    Finally, the Endangered Species Act, or ESA, should be 
improved to better reflect the human and economic impacts of 
listing decisions. The ESA is too rigid and relies on 
regulation to protect imperiled species. Landowners and other 
affected parties should be viewed not as the source of the 
problem but as a part of the solution.
    In conclusion, we don't need more experiments, mosquitoes, 
or publicly-owned land in the Missouri River Basin. We must 
minimize the effects of weather extremes by protecting lives 
and infrastructure, make wise investments in the BSNP and the 
inland waterway system, and manage flows for human needs; and, 
where possible, enhancement of fish and wildlife habitat.
    I would like to thank you for the opportunity to speak with 
you today and would be happy to try to answer any questions you 
may have. Thank you.
    Chairman Graves. Thank you, Mr. Gregory. I appreciate it.
    Our final witness is Mr. Joel Euler, who is an attorney and 
represents the Southside Levee District here in St. Joe. In 
addition to the Southside Levee District, Mr. Euler represents 
other predominantly rural levee districts in Missouri and in 
Kansas.
    Mr. Euler, thank you for being here, appreciate you coming 
in and looking forward to your testimony.

                    STATEMENT OF JOEL EULER

    Mr. Euler. My pleasure.
    Greetings. My name is Joel Euler, and I am an attorney with 
an office located in Troy, Kansas. That is approximately 10 
miles west of St. Joseph. I am here before you today as an 
attorney for the South St. Joseph Drainage and Levee District, 
which is one of several districts I represent along the 
Missouri River. This district is located adjacent to the 
Missouri River, south of United States Highway 36, on the 
western edge of the City of St. Joseph and in Buchannan County, 
Missouri. The district was established more than 40 years ago 
and protects agricultural, residential, recreational, 
commercial and industrial properties.
    The district is operated by a five-member Board of 
Directors who are elected officials who own real estate within 
the confines of the district. The makeup of the Board of 
Directors includes both individual and corporate 
representatives. The district is responsible for the 
maintenance and operation of the levee and drainage structures 
in the district and, as such, plays a pivotal role in the 
protection of the various entities behind the structure. In 
2011, invested capital in the district totaled in excess of $2 
billion.
    In about 1998, the Corps of Engineers made a review of the 
levee structure in the district and determined that 
modifications were needed to allow the structure to maintain 
its protective capability. Since that time, the district and 
other local units of government have been working with the 
Corps to finalize the modifications to be made. However, 
progress is severely hampered because the Corps of Engineers is 
unable to regularly obtain the funding necessary to complete 
the design phase of the project and move the same into 
construction. At present, it is my understanding that funds 
have not been allocated for this project in the upcoming 
budget.
    I understand that the purpose of this hearing is to take 
input with regard to the authorized purposes that the Corps of 
Engineers uses to manage the Missouri River System and discuss 
which purposes the district believes is most important. 
Unequivocally, the district considers the most important 
purpose to be flood control. Improper flood control has a 
negative impact on every activity conducted behind the 
structure. The individual who lives behind the structure must 
maintain a constant vigil during times of flooding and high 
water to ensure that his home and property are safe. This worry 
is in addition to the everyday stresses which an individual 
faces and often takes a heavy toll both financially and 
emotionally on citizens.
    The farmer who lives and works the ground behind the 
structure is negatively affected when releases of water are 
sustained for long periods. This causes saturation to the farm 
ground, and during those times when the river level is so high 
that the floodgates must be closed causes ponding of water 
behind the structure which destroys crops and makes farming 
operations difficult, if not impossible.
    To the industrial and commercial businesses behind the 
structure, the financial costs associated with continued high 
water take a different form. Each time there is an extended 
high water event or the threat of flooding, the business must 
modify its operation to allow for potential evacuation and must 
make preparations in the event of flooding. Preparations 
include changing production schedules, removing raw materials 
and products and equipment from the facility, and all 
activities of a similar nature. In some instances during 
sustained high water events, flood fighting operations restrict 
traffic and rail flow, causing a shortage of raw materials 
which cost not only production but profit for the company.
    In addition, the condition of the levee and continued flood 
threats take a toll on businesses in the form of increased 
costs associated with flood fight preparation, flood and 
business loss insurance, and other expenses associated with a 
potential flood event. While the event may never occur, good 
business practice requires planning for the event.
    Potential business concerns about the operation of the 
levee structure and the Missouri River System as a whole can be 
a major consideration when determining whether or not to locate 
within the district. While some companies might choose to try 
to erect structures at a level where they will not be affected 
by high water should the levee breach, this is cost prohibitive 
in most instances and, as such, creates a negative impact on 
business.
    In essence, if continued high water events occur--floods--
they will act to chill the interest in locating within the 
district and, as everyone is aware, competition for business is 
already keen and communities cannot stand any negatives with 
regard to their industrial areas.
    With regard to the smallest businesses, the mom and pops, 
these businesses are almost completely dependent on the work 
that is derived from supporting the larger industry. The 
businesses are often specialized, and once the larger business 
leaves, the small ones have no customers to serve and, as such, 
must close as well.
    In closing, the district believes that unless flood control 
is made the primary emphasis of the operation of the Missouri 
River System, at some point flooding and high water events will 
occur with such frequency and have such an impact on businesses 
of all sizes that the real estate located behind the structure 
will no longer be a viable location for businesses, thus 
causing a negative impact on the community.
    I am happy to answer any questions that you might have.
    Chairman Graves. I thank all of you for coming in.
    We will just jump right in. Most of my questions are 
actually panel-wide, and if I ask a question specifically to 
somebody and you have something to say, please jump in.
    But my first question is pretty general, and I am going to 
start with Ms. Farhat. Are we asking the Corps to do too much? 
You have eight priorities that you are juggling and trying to 
figure out how you prioritize each of those specific tasks you 
have to manage the river with. I mean, are we asking too much? 
Should we legislatively prioritize those for you? Because, 
obviously, some of them have more economic impact than others 
when it comes to managing the river.
    Ms. Farhat. The system was authorized for those eight 
project purposes, and many times they can be in conflict with 
each other. For example, flood control requires empty space in 
the reservoirs. All of the other project purposes require us to 
either hold the water in the reservoirs or release it for 
downstream use.
    But I think that the reservoir system, if you look at its 
historic operation up through today, continues to function as 
it was designed. It provides tremendous benefit to the space in 
all of those areas, and each and every one of the authorized 
purposes benefits tremendously from the operation of the 
reservoir system.
    So I think it is a manageable system. It isn't designed to 
maximize benefits for any one of those purposes. It is to 
provide service to all eight.
    Chairman Graves. Anybody else? Ms. Kunkel?
    Ms. Kunkel. Chairman Graves, I certainly feel strongly that 
we are asking the Corps to do too much. I do not believe, as I 
travel on the river in a small fishing boat and look at eroded 
banks, notched dike lines and structures that have been put in 
place within my county, within the levee district that my 
family farms, that I can see that we are not taking benefit 
from the flood protection of that levee system that is 
protecting the agricultural and business communities behind it 
in an effort to meet an obligation of the Biological Opinion to 
provide shallow-water habitat and to widen the top water 
surface and slow the channel.
    All of those functions to meet the BiOp are creating a 
situation that threatens the flood control structure that has 
been there and afforded those businesses, homes and families to 
believe that they had the protection that they needed to 
develop that basin.
    And what I am seeing today behind a dike notching and a 
shallow-water habitat is a low, warm-water pool of Asian carp, 
not pallid sturgeon, and it is time that we stopped this, 
dredged the channel, fixed the banks, and go back to moving 
boats on barges up and down this river with commerce.
    Chairman Graves. That kind of brings us to the Endangered 
Species Act and the pallid sturgeons. The pallid sturgeon--I 
don't know who can answer this question. I wish the Fish and 
Wildlife Service were here. But is the pallid sturgeon, is it 
endangered worldwide? Is it just endangered in parts of the 
Missouri? Is it endangered throughout our river systems?
    Ms. Farhat. I believe that the Fish and Wildlife Service 
has listed the pallid sturgeon endangered range-wide, and it is 
listed in the Missouri River Basin, which requires us to 
operate for it.
    Chairman Graves. Okay. So let me ask you this question, 
then. When it comes to management based on habitat as one of 
the priorities, where do you get your directions from? I mean, 
you are obviously going through the process of doing it, or the 
Corps of Engineers is going through the process of doing 
certain habitat reclamation, whatever you want to call it, 
shallow water. It is the Jameson Island Project, which I am 
familiar with. But my question is, does the Fish and Wildlife 
Service direct you on what you will do in terms of--or the 
Corps of Engineers? And when I say ``you,'' I guess what I am 
saying is the Corps. But does the Fish and Wildlife Service 
direct the Corps on what they will do, or does the Corps take 
it upon themselves to move forward with that? Who makes those 
decisions, and who is giving the marching orders?
    Ms. Farhat. Well, the 2003 Biological Opinion lays out what 
are called reasonable and prudent alternatives that the Corps 
is to implement in order to meet the intent of the Biological 
Opinion. So those reasonable and prudent alternatives are 
designed to preclude jeopardy or the loss of that species. The 
Biological Opinion in terms of habitat lays out some acreages 
of habitat that the Corps is to build, to construct on the 
river, and so that is part of the recovery program to do that.
    And I think it is important to remember that the Corps has 
chosen to comply with the Biological Opinion in this manner of 
constructing shallow-water habitat on the river rather than 
providing shallow-water habitat in other ways that we feel 
would be more destructive to the basin, which would include 
flow changes from the reservoir.
    The other options are to provide larger spring rises in the 
spring and low summer flows that could preclude navigation 
during the summer period. So the Corps has decided, and worked 
with the Fish and Wildlife Service, to enable us to construct 
the habitat mechanically rather than providing it with flow. We 
think that that best serves the overall needs of the basin.
    Chairman Graves. Mr. Euler, did you have something?
    Mr. Euler. No, sir, not yet.
    Chairman Graves. Mr. Frakes?
    Mr. Frakes. I would like to revert back to the original 
comment. I think the Corps has too much responsibility in 
trying to do all of these things and do them well. As Kathy 
Kunkel here mentioned about the flood control, without flood 
control, we don't have anything behind these levees. I mean, 
you can have infrastructure--I remember as a young teenager my 
father and grandfather talking about what an improvement it was 
when a Federal levee was put in on part of the farm properties, 
which was completed in 1952. We were all led to believe flood 
control was going to be one of the predominant reasons these 
levees were built. Infrastructure was built, highways were 
built, businesses--I could go on and on--went back with the 
reliability that this was going to reduce or prevent flooding, 
and people built and followed that idea.
    Things have changed. We need to improve these levee 
systems, if it is build them taller or whatever. We set levees 
back, we lose farmland. What in your life doesn't require 
maintenance? Your health, your machinery, your car, your home. 
We have not had any help, assistance, other than locally what 
we have done to try to raise some of these non-Federal levees 
to offer more protection. The flooding likelihood has become 
more often due to more runoff. The weather seems more extreme.
    But without rambling on and on, without having flood 
control, we have nothing behind these levees. The highways are 
closed. We can't get to the river crossings. Commerce is 
stopped. Businesses can't operate. Flood control--Congress 
needs to help with the Corps and flood control being a 
priority. Not that Fish and Wildlife doesn't need some of these 
dollars, but it is out of balance. Fish and Wildlife receives 
way too much money as a percentage, out of the 100 percent. We 
have to have flood control. Thank you.
    Chairman Graves. Just going back to exactly what Mr. Frakes 
said, I would be curious if you all agree with that, that 
without flood control we don't have anything, and that would 
include the changes that the Corps is doing when it comes to 
habitat. I am assuming that if it floods, it damages those as 
well. In some cases, you have to start all over again.
    But do you agree with that?
    Mr. Frakes. Well, I do.
    Chairman Graves. Well, I know you do.
    Mr. Frakes. Yes.
    Chairman Graves. Because you said it.
    Mr. Frakes. And in my particular area, even where we had 
impounded waters where levees weren't overtopped or breached in 
the case of a Federal levee, Hull's Levee, the wildlife left. 
We had 106 days, I always say 100 days of this flooding outside 
these levees, and the levees, the non-Feds that were breached 
destroyed these homes. The wildlife is gone. It hasn't returned 
to the field. I don't see many deer or pheasants, quail. You 
know, it is just gone, because what could sustain 100 days? 
That has just been two years ago. That is gone. I don't see the 
fish and wildlife, the trees. It has killed trees on the 
protected side of the levees I didn't think would ever die, big 
cottonwoods and large trees that have been there for numerous 
years. They are dead and gone, falling over and whatever. This 
forestland and whatever is destroyed. Will there be re-growth? 
I presume so. But it is going to be a long time. The flood 
control protects everything.
    Chairman Graves. It would seem to me that without the flood 
control, because if it floods, you don't have recreation, you 
don't have habitat, you don't have navigation, you don't have 
any of the priorities.
    Anybody else? Mr. Euler?
    Mr. Euler. What I think that you encounter is if flood 
control is no longer going to be the priority, what that 
amounts to for local communities is an unfunded mandate for us 
to try to make repairs or to make preparations to fight a flood 
so that we can help the wildlife or enhance recreation. So if, 
in fact, that is going to happen, what I think needs to go on 
is that Congress needs to look at substantial funding towards 
upgrade of the levee system in order to permit these other 
activities to occur. I believe that when the levee system was 
created, that it was created for flood control. I believe that, 
as with all things, it evolved in that powers come and go, and 
as that has happened, now you see an environmental focus on a 
structure which was once designed for flood control, and the 
two don't match because the system is not designed for arrays, 
it is not designed to have the open area between the levee 
structures filled with siltation or trees. And because of that, 
the way the system was designed to operate, it doesn't operate 
anymore.
    What we locally are left with is how do we fix that. So we 
start with the Corps of Engineers, which is, to me, I see them 
in a positive light, but `97, `98, 15 years later we are still 
waiting for our resolution to the problem. The problem is 
nobody wants to give us any money. The government wants to 
change the way the system operates because it is one of the 
authorized purposes. They want to change the focus of the 
authorized purposes. And when they change that, what we have to 
do is react. Well, if you are going to change that with Federal 
money, then let's have Federal money on the other side so the 
drainage districts up and down the system can prepare to 
operate. If you want to raise the levees and then you need a 
rise, then you are ready.
    But now what happens is you can't control the water, so you 
have an event like 2011 and the water is impounded on the back 
side of these levees that don't overtop, levees overtop and 
breach, millions of dollars in damage. So FEMA comes in and we 
pay Federal monies to rebuild that. But that is a band aid. You 
just fixed a problem so the next time it happens we can fix it 
again. If we are going to take these Federal monies, we might 
as well apply them to working a systematic solution of what I 
believe the issue is.
    Ms. Kunkel. And I really believe that Mr. Euler hits the 
nail on the head. Funding is the challenge. And I will tell you 
that Mr. Euler in his levee district sat all of these years 
waiting for funding to protect the people and the businesses of 
St. Joe, in the same way that the levee districts in my 
community sat waiting for the Corps to have money in early 2012 
just to come assess the damage on the levee districts. And at 
the same time, a contract was being let right across the river 
here for the Dalby Bottoms Project. There were workers and 
excavators running and dozers running to make chutes, much like 
the Jameson Island chute. That project was funded and working 
when we could not get funding to even look at the damage for 
our levees.
    So people were still out of their homes, county roads were 
not fixed, MODOT highways were not fixed. We could not go back 
to commerce and trade. But yet, excavators were running to dig 
pallid sturgeon chutes. We have a misbalance in priorities. It 
is totally ridiculous to believe that the City of St. Joe has 
spent all of these years trying to get someone to listen to 
their very legitimate concerns while over $600 million has been 
spent to acquire land in these communities, take it off the tax 
rolls, dig up good soil and dump it in the river for a fish.
    Mr. Euler. One thing. It may be such a thing that the Corps 
doesn't have too much to do but that they don't have enough to 
do it with. In my business I had a guy who came to my dad one 
time who was complaining because his work wasn't done quick 
enough. My dad says I have too much to do. And the guy said, 
you know, I raise tomatoes, and if I can't pick all the 
tomatoes, I don't plant as many plants the next year. So we 
either need to provide enough funding for these folks to do 
what we want them to do, or we need to take something off their 
plate.
    I don't believe that the Corps, when they look at the 
situation of the whole county, says that is a good thing that 
we can't get there. I think it creates a conflict for them 
because they can't do everything that they are supposed to do. 
So the issue becomes if there is too much to do, let's get rid 
of some of it. So you look at the eight purposes, and maybe it 
is time for one of the eight purposes to go.
    Chairman Graves. And that brings us to funding priorities. 
When the Corps gets its funding, who makes that decision on--
how are those priorities determined in terms of how much money 
you are going to use to purchase land? I understand there is 
another round of--at least that is what the rumor is, there is 
another round of buy-out letters that are going to go out to 
landowners by the Corps, and I would be very curious, too, what 
your thoughts on that are. That is another question altogether.
    But who makes the determination on doing some of these 
chutes or some of these shallow-water habitats, or fixing or 
repairing levees, or doing whatever else there is out there? 
How are those decisions made? Is it the Fish and Wildlife 
Service that is making that decision, or is it you all that is 
making that decision? Is it the Administration, the Department 
of Interior making that decision?
    Ms. Farhat. Well, the Corps gets funding for specific line 
items in the budget. So money that is used to, for example, 
maintain the Bank Stabilization and Navigation Project or to 
operate and maintain our dams comes under a different funding 
stream than money that comes from the recovery projects, and 
the Corps doesn't have the ability to move money between those 
business lines or between those pots of money. Money that 
Congress authorizes to be used for the recovery program must be 
used for the recovery program.
    Within the recovery program, the Corps does have latitude 
on how we spend the money each year, whether we are buying land 
or constructing chutes or emergent sandbar habitat, doing 
research. But that money, all of that money is spent to do the 
minimum we need to comply with the Biological Opinion. So we 
look out over the years, and if we are going to continue to 
meet our goals building shallow-water habitat, that means that 
we have to purchase land along the river in advance of the time 
that we need to build that shallow-water habitat.
    But in that specific program, we work with the Fish and 
Wildlife Service, and we work with the Missouri River Recovery 
and Implementation Committee to help decide how that money is 
spread across the program, the Missouri River Recovery Program, 
in order to comply with the Biological Opinion.
    Chairman Graves. When you say we do the minimum amount 
required to comply, who makes that decision on what is the 
minimum amount?
    Ms. Farhat. The Biological Opinion lays out a range of 
activities that are necessary to preclude jeopardy to the 
species. Many of the targets are long-term targets, looking out 
over the next 10 to 20 years. So we are on a glide path to meet 
those minimum habitat requirements, and to also complete the 
other activities that are laid out in there. It is laid out in 
the Biological Opinion.
    Chairman Graves. When you say the biological community----
    Ms. Farhat. The Fish and Wildlife Service, the biological 
community.
    Chairman Graves. So they are making the determination what 
is the minimum amount----
    Ms. Farhat. Yes.
    Chairman Graves.--that is required to meet that? And again, 
that is the money you all have discretion over, which they are 
essentially dictating? Is the Fish and Wildlife Service 
dictating to the Corps of Engineers, then, where they will 
spend that money, since they are determining what the minimum 
amount is?
    Ms. Farhat. Well, the Biological Opinion lays out the 
criteria that we have to meet to comply to avoid jeopardy to 
the species. On each individual year, we work with the Fish and 
Wildlife Service and the Basin stakeholders to decide how that 
money is spent across those different features of the 
Biological Opinion. So they aren't directing individual 
projects, but they are directing the overall goal of the 
program, which is to preclude jeopardy to the pallid sturgeon 
and the least tern and the piping plover.
    Chairman Graves. And we brought up WRDA. Mr. Gregory 
brought up WRDA and Congress passing it, and just kind of some 
background with WRDA now. WRDA is in a unique position in that 
WRDA is the water resources bill, and it governs all of our 
waterways and how we do it, and it is a project bill. Specific 
projects are laid out in WRDA by Congress on how money will be 
spent. The problem is that we have an earmark ban now, and we 
can't figure out how to pass a bill that is a project bill that 
we can't have projects in.
    So what is happening or what will probably happen with 
that, if we can't change what the definition of ``projects'' 
are, or infrastructure projects, is we will cede all that 
authority to the Administration. So if we pass WRDA, the water 
resources bill, with no projects in it, the Administration will 
make all the decisions on how that money is being spent.
    So if that is the case, then the Administration will have 
total latitude, or Fish and Wildlife Service will have that 
ability to dictate even further to the Corps of Engineers 
exactly how they are going to spend that money, or again going 
back to what the minimum amount required to protect that 
habitat. Would you agree? I mean, it has to be frustrating to 
you that we can't get a WRDA bill passed without specific 
projects.
    Did you like the system we had that specifically laid out 
things we would do? I am asking you, Ms. Farhat. Or would you 
rather see that authority going to what it would ultimately be, 
the Fish and Wildlife Service, to determine?
    Ms. Farhat. I think, in the case of the overall WRDA bill, 
it would be more than the Fish and Wildlife Service. A lot of 
local communities use the WRDA bill historically to get flood 
control projects and other infrastructure projects funded. So I 
think the Corps of Engineers always appreciates a WRDA bill. It 
allows us to provide our mission of protecting the nation's 
resources and providing flood protection.
    Chairman Graves. And therein lies the problem, too, and you 
are right, communities do utilize and tap into WRDA when there 
are projects in it. But if we have a WRDA bill that has no 
projects in it, that money will go to those agencies that 
oversee that, and they will make the determination, which is a 
frustration, a huge frustration when it comes to stuff like 
that.
    Let me ask you this. As far as the money to purchase land, 
where does that come from? Does that come from direct 
appropriations through the Corps appropriations through the 
Department of the Interior, or is it----
    Ms. Farhat. No. That comes through the line item in the 
budget that pays for the Missouri River Recovery Program.
    Chairman Graves. Okay.
    Ms. Farhat. And that is not part of WRDA. That is a 
separate line item in the budget.
    Chairman Graves. I understand that.
    Ms. Farhat. Yes.
    Chairman Graves. So the amount of money that you determine 
you are going to spend on purchasing land, that is completely 
determined by you all, and again that goes back to the minimum 
required by Fish and Wildlife down the road.
    Let me ask you this. When is enough land going to be 
purchased?
    Ms. Farhat. Well, what the BiOp lays out is that we are to 
construct--I believe the numbers are between 20,000 and 30,000 
acres of shallow-water habitat from Gavin's Point Dam down to 
the mouth of the St. Louis. I could have those numbers wrong, 
but I think that is the right range. So we purchase land in 
order to build the shallow-water habitat. There is also the 
Missouri River Fish and Wildlife Mitigation Program, where 
Congress has directed the Corps to purchase 166,750 acres of 
land along the Missouri River to mitigate the impacts of 
building the dams and the Bank Stabilization and Navigation 
Program. So that is the authority that the Corps is using to 
purchase land along the river, and that is for mitigation.
    Chairman Graves. How far along in that process are you? 
What did you say, 100 and----
    Ms. Farhat. One-hundred and sixty-six thousand is the 
target, 166,750, and I believe we have purchased about 60,000 
acres to date.
    Chairman Graves. So you have another 100,000 acres to go?
    Ms. Farhat. Yes. If we were to purchase all the land that 
was authorized by the mitigation program, there would be about 
another 100,000 acres to go.
    Chairman Graves. And that is what the Fish and Wildlife 
Service determines as the minimum amount required to----
    Ms. Farhat. No. This is a separate program, the mitigation 
program. We use the authority provided by the mitigation to 
allow us to implement the Biological Opinion. But the 
mitigation is a separate requirement and a separate authority. 
Many times when we buy land and we build shallow-water habitat 
for the endangered species, it also counts towards that 
mitigation requirement. But it is separate from the Biological 
Opinion.
    Chairman Graves. What are we mitigating? That is just for--
so we have two programs, right?
    Ms. Farhat. Yes.
    Chairman Graves. Okay. One program is going to purchase 
another 100,000 acres, and that is the mitigation program.
    Ms. Farhat. Right.
    Chairman Graves. And the other program, let's go back to 
that. You said 30,000?
    Ms. Farhat. I believe the number is between 20,000 and 
30,000 acres of shallow-water habitat.
    Chairman Graves. Where are we at in that program?
    Ms. Farhat. I don't have the exact number, but I think it 
is around 4,500 acres.
    Chairman Graves. Forty-five hundred acres?
    Ms. Farhat. Yes. I can get you the exact numbers.
    Chairman Graves. So we have at least another 20,000 to 
25,000 acres.
    Ms. Farhat. Fifteen to 25,000.
    Chairman Graves. How many acres--go ahead.
    Ms. Kunkel. In Holt County, there are five of these 
mitigation projects that touch the county from north to south--
Deroin Bend, Thurnau Conservation Area, Rush Bottoms, Wolf 
Creek Bend, and Hare. Several of them are partnerships between 
the Missouri Department of Conservation as well as Corps on the 
ground that the Conservation Department is managing for them. 
In addition to that, we have Squaw Creek National Wildlife 
Refuge, which is almost 10,000 acres. So acres-wise, there is a 
lot of this mitigation if the early purchases are within the 
county boundaries of Holt County, and we have certainly seen 
those properties come off the tax roll, and we have worked very 
diligently with the Corps to work on some cash land management 
for state and agriculture production, and some alternative 
attempts to keep some dollars in the economy.
    But what we would really like to see--and we have been 
working with Congressman Luetkemeyer as well--is credit for 
other Federal holdings that are in wetland-type programs, 
Wetland Reserve Program. Big Lake State Park has a large 
wetland area that is around the park itself. None of those 
river basin wetland areas are being included in this additional 
100,000 acres that still needs to be met to return to native 
pre-channelization habitat, and we feel it is important that 
there be a full assessment done from Gavin's to St. Louis of 
all the Federal land holdings that are considered some version 
of a wetland-type project, whether they are private holdings 
with leases, U.S. Fish and Wildlife, state conservation, state 
D&R, all of those things. A full inventory needs to be done to 
see if we are close to that 100,000, or does the Corps need to 
continue to purchase those acres.
    And then, of course, it is a continued issue on the 
shallow-water habitat. We would like to see that habitat not be 
aimed and working itself towards levees. In many cases, if 
people aren't familiar with what the chutes are, with Bank 
Stabilization and Navigation you have the traditional channel 
with traditional banks, and then you have a setback, and then 
you have a levee system. So what is happening is, if the Corps 
purchases ground between the levee system and the river, then a 
dredge is being used to channel out little side chutes off of 
the main portion of the channel between the levee and the 
channel itself to create a shallow or a backwater habitat.
    In times of high flood water, that entrance was designed 
originally to take about 10 percent of the flow off of the 
river and backwater it to provide that habitat. But, of course, 
in 2011 what we saw, particularly on Wolf Creek Bend, was that 
that mouth widened extensively. There was a loss of control of 
the water that was coming into the chute, very similar to 
putting your thumb on a garden hose and forcing a lot of the 
current to go to the side. So, of course, it forced the water 
back at the Federal levee system, and the Corps had to spend an 
unbelievable amount of resources--my understanding is over $3 
million--to maintain the Federal levee there from eroding away 
because of damage coming from the chute.
    But in the long run, what we then see is an acquisition 
letter asking those landowners to sell their land and a march 
for the levee to continue to move backwards as the river gets 
spread out of that channel. So it is a significant issue for 
us, and we do not want to see additional land acquisition. We 
would actually like to see projects back in WRDA that would let 
us work with the Corps, Conservation, D&R and the other 
stakeholders to really study and look at a good project on land 
that they already own and figure out a way to get a balance so 
that we can get the chutes repaired, make them feasible to meet 
the Biological Opinion, keep some agriculture on that 
particular land, and protect the levee system. But without 
earmarks, we can't really ask for a specific project.
    Chairman Graves. How much ground is between the levee and 
the river?
    Ms. Kunkel. It depends based on the levee district.
    Chairman Graves. I understand that. But by county, do you 
know?
    Ms. Kunkel. On Pick-Sloan Levee, it is a quarter mile, a 
half mile at some times. But with a traditional non-Federal 
levee, it may only be a few hundred yards.
    Chairman Graves. Yes.
    Mr. Frakes. A comment I would like to make, Congressman 
Graves made a statement: How much is enough? Jody's answer to 
that, that what you are required to do, in visiting with 
Congressman Graves' staff, Melissa Rowe here, a couple of 
months ago about these purchases of land and maybe some 
compensation from the Corps and tax monies or whatever, I guess 
I come from a farmer that has land, from the '93 flood or the 
2011 flood, that has 10 feet of sand on it, and it is 
financially probably not feasible to reclaim this land for 
farming, I guess I can see maybe that being developed for 
shallow-water habitat or something done. But in my area, the 
Benedictine Bottom on the Kansas side of the river and this 
Dalby Bend were both pretty much prime farmland that was 
purchased with these monies and literally destroyed for any 
agricultural production. These side chutes have been put in. I 
understand that the Fish and Wildlife requires this.
    It seems to me that the Fish and Wildlife has too much 
control with the Corps in regard to this. This Dalby Bend area 
was 1,600 acres of average to slightly above-average farmland 
that will no longer produce anything. It is off the tax rolls. 
It will not support any small businesses that those farm owners 
bought chemicals, fertilizers, whatever. There is no income to 
the local economy there. I can't see anybody coming in there 
that any monies are going to support Atchison County, Kansas in 
either one of these projects to any large extent.
    So I guess this can't be changed, this 100,000 acres that 
they have to quarry yet? I keep reverting to that point, and 
excuse me, but how much is enough? Haven't we got enough to 
satisfy Fish and Wildlife? Do we have to have everything 
outside the levees? There is prime farmland out there, and it 
is inside the levees. The farm ag levee was there. There is 
nothing there now. I just think we are overboard.
    Chairman Graves. I would be very curious to know how much 
ground is outside the levee. I mean, if it is a half mile 
between the levee and the river, that means it is two miles to 
get 640 acres.
    Mr. Euler. It would vary. It would vary based on the 
structure.
    Chairman Graves. I understand that.
    Mr. Euler. Right, and probably the Corps could tell you on 
our system, on every system up, how much is outside, lay 
outside the levees. I would guess they have that figure.
    Chairman Graves. It has to be literally thousands of miles 
along the river that would be bought up. Do you have any idea, 
Ms. Farhat?
    Ms. Farhat. No, I don't. What I can say is the mitigation 
program was designed to re-create some of the habitat that was 
lost when the dams and the bank stabilization project were 
built. When those were built, it is estimated that 522,000 
acres of wetlands area and habitat was lost. So the purpose of 
the mitigation program is to reconstruct a portion of that, 
roughly a third of that land. So that is where the number, the 
166,000, came from.
    Chairman Graves. And that is purely--that is for habitat?
    Ms. Farhat. It is to mitigate the effects of the Bank 
Stabilization and Navigation Project.
    Chairman Graves. I guess the next question, it kind of 
comes back to priorities. The Endangered Species Act--and I 
will just ask you straight up. Does the Endangered Species Act 
take priority over everything else when it comes to management 
of the river? And that would have a direct implication, 
obviously, on habitat reclamation, obviously.
    Ms. Farhat. Well, we manage the reservoir system to serve 
the authorized purposes while also complying with the 
Biological Opinion. And as I mentioned before, we believe that 
the best way to comply with the Biological Opinion is to build 
this habitat that is required by using mechanical means to 
purchase land and mechanically build habitat rather than doing 
it with flow adjustments.
    So if we didn't have this program in order to buy land and 
construct these habitat features, we would have to go back and 
re-consult with the Fish and Wildlife Service, and then you 
have an opening there for other requirements of us, and some of 
them may be less palatable than what we have today.
    Chairman Graves. So the Fish and Wildlife Service has more 
power than you do when it comes to managing the river?
    Ms. Farhat. Well, we are required to comply with the law.
    Chairman Graves. But they have more power, obviously, in 
determining what the minimum is, and they dictate to the Corps 
exactly what you will do in terms of the minimum?
    Ms. Farhat. What they do is they tell us the objective that 
we have to meet, and there is more than one way to meet that 
objective. We have chosen to meet it by constructing habitat 
mechanically. If we choose not to do that anymore, if the Basin 
decides that is not the right way to go, there are other ways 
to meet that objective. But again, they might include aspects 
of managing the reservoirs that are less palatable than 
constructing habitat.
    Chairman Graves. Does the Corps ever say, no, we don't 
think that is going to work, we don't think you are correct?
    Ms. Farhat. Absolutely. There are times that we do not 
operate for the benefit of the species. During the 2011 flood, 
for example, we suspended all of our operations throughout the 
Basin for endangered species. We were in complete flood 
operations. It was the one and only priority. We had a record 
amount of runoff. We hadn't planned to run a spring rise that 
year anyway because we had high flows on the river before the 
major flood started. But once the flood got started, we did not 
do any operations for the endangered birds or the pallid 
sturgeon. We do operate for those purposes, and the Endangered 
Species Act many times takes a back seat for operating for 
those other purposes.
    Chairman Graves. And I will say this straight up. I do 
applaud the efforts that the Corps made to get the--I mean, you 
had a perfect winter for repair work, but you did move pretty 
rapidly on that.
    That brings me to another question. So, what happened? Did 
Fish and Wildlife, or did you all get sued by anybody over 
diverting money from habitat reclamation into levee repair?
    Ms. Farhat. We did not divert money from habitat to levee 
repair.
    Chairman Graves. But you didn't spend any money on habitat 
repair during the 2011 incident when we did all the levee 
repair. Or what did you say? I guess I got it wrong.
    Ms. Farhat. Well, work for the recovery program continued 
through the 2011 flood. There are a lot of other things that 
are going on each year besides building shallow-water habitat. 
There is an extensive science program that is going on that 
includes research with biologists at universities and other 
agencies, state agencies.
    Chairman Graves. But you suspended just about everything?
    Ms. Farhat. We suspended the reservoir operations for the 
flood. But the other work of the recovery program continued on.
    Chairman Graves. So the habitat reclamation or reclaiming 
or the mitigation, it continued.
    Ms. Farhat. Well, actually, as Kathy mentioned, some of it 
started after the flood waters had receded. During the actual 
flood event, there was no construction on the river.
    Chairman Graves. Well, you couldn't. It was underwater.
    Ms. Farhat. Yes, right. But the money that the Corps spends 
to, for example, reconstruct levees after the flood does not 
come in the same funding line as the recovery program, and we 
cannot move money from the recovery program into things like 
levee repair.
    Chairman Graves. What are the proportions in terms of what 
I would consider flood control, and that would be levee repair, 
maintenance, as opposed to what we spend on habitat, 
mitigation, whatever you want to call it, saving the fish?
    Ms. Farhat. The recovery program, since its inception in, I 
believe, 2006, has averaged $67 million per year. And the 
Corps, across all business lines--navigation, flood control, 
the environmental lines, hydropower, water supply--spends about 
$110 million on operation and maintenance of the reservoirs and 
the bank stabilization and flood protection measures in the 
Basin.
    Chairman Graves. So $110 million is everything other than, 
and the $67 million was just habitat?
    Ms. Farhat. Yes, for the recovery program.
    Chairman Graves. For the recovery program.
    Ms. Farhat. Right.
    Chairman Graves. And $110 million is everything else?
    Ms. Farhat. Right.
    Chairman Graves. So $67 million is for one priority? Would 
that encompass one priority of the eight?
    Ms. Farhat. It allows us to comply with the Biological 
Opinion.
    Chairman Graves. Okay. And $110 million is for the other 
seven priorities.
    Ms. Farhat. That is correct.
    Chairman Graves. Okay.
    Mr. Frakes. If I could, Congressman, this might be a 
comment or maybe a question for Jody. All this money that has 
been spent for mitigation, shallow-water habitat, purchase of 
these lands, developing the lands to the design that you want 
them to be, all those monies that have been spent, there hasn't 
been much proven results that I am aware of. I would like for 
you to comment on that.
    Chairman Graves. Actually, that was one of my questions, 
just out of curiosity, too. Is it working? Do we know if there 
are more pallid sturgeon as a result, or piping plovers, or 
least terns?
    Ms. Farhat. Okay. I am not the recovery program expert, but 
I will tell you what my understanding is. We have constructed 
shallow-water habitat along the lower river. We have not seen 
at this point a direct, one-on-one increase in the number of 
pallid sturgeons, but we do know that these shallow-water 
habitats are providing good variety in habitat along the river. 
Other species are beginning to use those. We see the 
invertebrates in those shallow-water habitats, and all those 
things are important for the pallid sturgeon.
    The pallid sturgeon are a rare fish. They are very 
difficult to find, and we believe that as we continue to 
construct this habitat, that it is very important for their 
life cycles and that it will pay off in the long run. We are 
just at the stage that we are continuing to learn through both 
the science that we are doing and the monitoring of these 
habitats that we have constructed.
    Chairman Graves. Did Fish and Wildlife get an accurate 
count of--after the flood waters receded last year--and I went 
out and saw them--there was a lot of wildlife that were left 
over in those--I don't know what you would want to call them--
those squirrel holes which dried up and everything in there 
died. I remember there were sturgeon, and I don't know if they 
were pallid sturgeon or not, but there were sturgeon in there, 
and every one of them died, and I went out there and looked at 
that. But did you get an accurate count? Did Fish and Wildlife 
get an accurate count of the impact that the flood had on the 
wildlife that it is supposed to be protecting? I mean, flood 
control has an effect on the efforts that you are doing in 
terms of the recovery.
    Ms. Farhat. I know a lot of all varieties of fish were 
stranded on the flood plain. I don't know if there was anyone 
out there counting them. I do know that they have recorded, in 
the fish that they have caught, that the fish in general 
responded very well to the high-water year in 2011, because 
there was a lot of connectivity and a lot of food source going 
into the river. So, in general, fish species did well during 
the flood.
    Chairman Graves. But, I mean, you know that for a fact? I 
mean, it is hard for me to understand just exactly--I don't 
think we know what is in the river, but I guess that is a 
layman's point of view, somebody who has lived along the river 
their whole life.
    Mr. Frakes. To add to the question, if I might add to that, 
do we know that had none of the shallow-water habitat been 
done, that there wouldn't have still been these same results 
somewhat? You mentioned that it is not really completely proven 
that it has been successful. As we talk about small businesses 
here, as a farmer, if I try some project that costs money and 
there are not results, I will soon be broke. But you seem to 
have ample monies coming for this, but we need it for flood 
control, as the Congressman talked about, to protect this 
environment.
    I have a problem. Is this actually doing anything? And we 
have another 100,000 acres to acquire. Do we just keep doing 
this for X number of years and then we decide, oh, that didn't 
work. That is a lot of money.
    [Applause.]
    Mr. Frakes. I mean, we went so far, and I don't believe we 
have got any proven results right now that we can really put 
our hands on; you know, there is the fish, and that resulted 
from spending X number of dollars. I don't think we have that. 
So we just keep doing this, then?
    Mr. Gregory. I would say that we also--oh, I am sorry.
    Chairman Graves. Go ahead, Mr. Gregory.
    Mr. Gregory. I would say that that also ties into Ms. 
Kunkel's statement of if we continue to keep purchasing this 
land, it is continuing to take money out of the tax base for 
the counties, and that is going to continue to hurt other small 
businesses throughout the Basin.
    Chairman Graves. And we haven't even gotten into that, and 
unfortunately we are not going to have enough time. But I do 
know that Ms. Kunkel talks to me about that all the time. When 
we do take land off the tax rolls, it has a huge impact on a 
county like Holt County, which is a smaller county to begin 
with, and that obviously has a direct impact on small 
businesses and on the way the county is run and services that 
are provided.
    Mark pointed out to me that the Endangered Species Act does 
require mitigation and protection to be based on best science, 
and I guess that comes back to determining what is best 
science. It isn't necessarily accurate science. It is what they 
consider, and I guess it comes down to what Fish and Wildlife 
considers best science because they are dictating to you all 
how you will do this, as was pointed out, because they tell you 
what you are going to do as the minimum with these programs, 
the mitigation program and the recovery program.
    Ms. Farhat. If I might interject here?
    Chairman Graves. Sure.
    Ms. Farhat. The Corps is embarking on what we are calling a 
management plan, looking at the science that we have been 
collecting on the river over the last decade and looking at how 
the recovery program and the mitigation program work together 
to accomplish the needs. So this is a three-year program. It 
will result in an environmental impact statement, and one of 
the things that we want to come out of that is another look at 
the items that are listed in the Biological Opinion to make 
sure that we are doing the correct things.
    So it is an opportunity to step back and look at the 
science that has been gathered and make sure that all of these 
things that we are spending money on today are actually 
providing a benefit, and to ensure that we are not spending 
money in areas that are not providing benefit to the species.
    So that is going on now. There are scoping meetings coming 
up in September. We encourage folks to participate in those, 
and we should have a refreshed look at all of these aspects of 
the recovery program when that study is complete.
    Chairman Graves. Well, essentially, the river is a lab 
experiment, that is what it is, to see if this is going to 
work. And the unfortunate part is--and I am going to give each 
of you a chance to say something before we finish up. But it is 
having an impact on people's lives and livelihoods who live up 
and down the river, and not just along the Missouri River. It 
has huge implications on interior drainage as well. Every river 
that drains into the Missouri, when we have flooding issues, it 
backs up and it floods inland as well and creates a massive 
amount of damage.
    But it is, it is having a huge impact, and the unfortunate 
part is--and I am curious, too. And I guess this comes to 
another question. Are there groups out there that threatened to 
use the Corps or Fish and Wildlife if they don't comply 
explicitly, or what they determine is explicit compliance, with 
the Endangered Species Act, threaten you or the Federal 
Government, threatening the Federal Government with court 
action if you weren't following Endangered Species? I guess 
that comes back to the Endangered Species Act really taking 
precedence over everything else, it appears.
    Ms. Farhat. I am not aware of any pending lawsuits.
    Chairman Graves. But I think we can determine for a fact, 
though, that obviously recovery and habitat gets the bulk of 
the money that you all are able to expend when it comes to all 
of those eight priorities in the river. That is obvious. You 
have $177 million, and $67 million of it is going to one 
priority, which is frustrating to me.
    I think we have also found something else that is very 
interesting and which was brought up. I mean, is there any 
reason why? Do we need a change in law? I am assuming, if we 
take, for instance, the land at Squaw Creek National Wildlife 
Refuge, which is 10,000 acres, why couldn't that be used as 
part of the mitigation process? Obviously, it is protected 
area. It is wetlands. But is there a reason why that ground up 
and down the river couldn't also be used or included in that as 
part of that overall plan?
    Ms. Farhat. I am not familiar enough with that subject to 
reply.
    Chairman Graves. That is something I am very interested in 
looking into and is something I am glad was brought up.
    But before we finish, I will give each of you an 
opportunity to close.
    Ms. Kunkel?
    Ms. Kunkel. Thank you for the opportunity.
    Chairman Graves. Take as much time as you want.
    Ms. Kunkel. Thank you for the opportunity to come today. As 
you very well know, I am very passionate about this issue. I 
came and saw you in your office in D.C. in March of 2008, long 
before the 2011 flood was on either of our radars, because at 
that time we had seen changes in the Missouri River already 
based on the Corps' need to comply with the BiOp.
    In Holt County, we saw a flood in May of 2007, in June of 
2008, in April and in June of 2009--neither of those were 
presidentially declared and were by local rainfall flooding--
for two months, for June and July of 2010, and for four months 
in 2011. We had not had a flood from 1993 to 2007, and I don't 
think that it is a coincidence that that is the year after the 
last of the adjustments were made to the management of the 
river.
    That being the case, we have stepped up to make our levees 
better, to do better things in Holt County, to be better 
protected, because we know it is a flood plain. And, as Mr. 
Frakes said, we expect that periodically that flood plain is 
going to flood, and the farmers and the people that live there 
know that, understand that, and accept the risk that goes with 
that.
    But what we are having is not commonplace. Climate change, 
droughts, floods, whatever you want to blame on the issue, we 
have got to look at the Corps' priorities, and they have to 
come back to flood control, navigation, and water quality for 
drinking systems, end of story. We have to make a balance in 
that money, and then let's take the land that they already own, 
let's meet the environmental needs, and let's do it well, and 
let's study that and be certain that the land that they own is 
being used to its very best ability to meet the needs of the 
environmental concerns that are out there. They already own 
that land; let's use it, and let the rest of us farm, live, and 
work in our communities with a reasonable protection from 
flooding. Thank you.
    Chairman Graves. Mr. Frakes?
    Mr. Frakes. Well, a few comments. I would like to commend 
the Corps. Most of us in here are probably involved with the 
Kansas City District under Public Law 84-99. Our levees were 
repaired in pretty much of a timely fashion. A few were a 
little slow, but the major work got done, and I commend the 
Corps for that.
    But I would like to see more money spent on this flood 
control and let's not have to use all these monies from the 
Corps and FEMA and SEMA. These are Federal tax dollars, state 
tax dollars that come in and repair after a flood. As Kathy 
mentioned, and I made remarks in my testimony, we can't 
eliminate every flood. We know that. But if we can minimize the 
amount of this flooding, we can save a lot of tax dollars by 
improving these levees, and they would be raising them some--I 
know that hasn't been done for a long time--and protect all 
this infrastructure that is sitting behind here. Farmland is 
not the only thing that is protected. There are lots of other 
things there.
    I will revert back to the '93 flood and the Galloway Report 
here stated that the flood damages were $12 to $16 billion. 
Agriculture accounted for over half of the damages. It says 
reservoirs and levees prevented more than $19 billion in 
potential damages. That kind of tells us that levees and flood 
control work. We prevented $19 billion. I have not seen any 
figures on the 2011 flood, but I guess I keep banging the drum 
on this flood control.
    I think there is enough mitigated lands. Evidently, there 
is not in Fish and Wildlife. Joel Euler here made the comment 
that maybe the Corps has too much to do. It is like you are 
trying to farm 10,000 acres with a four-row planter. You can't 
do it all. You are greasing the squeaky wheel. You just don't 
do a good job anywhere you are at, or as good as you could. The 
Corps has the expertise to build levees and protect these 
lands. Let them do that. I don't believe they need to be 
saddled with another job of developing all this fish and 
wildlife habitat.
    I think we are very fortunate here that Congressman Graves 
is being the chairman of this Committee, having an ag 
background and understand how all these systems work. This 
inundated, ponded water is a tremendous problem when we have 
floods. It gets more backed up ``upland.''
    So I thank you for having us here today and the opportunity 
to testify.
    Chairman Graves. Ms. Farhat?
    Ms. Farhat. Chairman, I also thank you for the opportunity 
to testify here today.
    You know, the role of the Corps is to execute the will of 
the American people, as directed by Congress and the 
Administration, and by the courts. So our job is to operate the 
reservoir system to meet those eight authorized purposes while 
complying with the environmental laws and other regulations 
that are put before us.
    The reservoir system does provide a tremendous benefit to 
this nation and to this basin. It provides, on average, about 
$1.8 billion in annual benefits through those authorized 
purposes--navigation, flood control, hydropower production, 
water supply. So it does provide a tremendous benefit.
    And in 2011, despite the fact that we had this tremendous 
flooding, record flooding, record runoff, the reservoir system 
and the levees and the emergency measures that were put in 
place prevented $8.2 billion worth of damages in this basin.
    So I think the Corps is trying to serve all of these 
purposes and doing the best that we can, and I assure you that 
our changes to the Master Manual to allow us to operate for the 
endangered species has not changed either the volume of storage 
that we have reserved for flood control or the way that storage 
is operated. Many times, especially when you get as far south 
as Missouri, the flooding that occurs is the result of local 
rainfall runoff, and what my office does when that occurs is we 
reduce the releases from the reservoir and we store water in 
the reservoir.
    That has always been what we have done, it has not changed 
over time, and the recovery projects allow us to operate the 
reservoirs in a manner that continues to provide service to 
those eight authorized purposes.
    Again, I thank you for the opportunity to be here today.
    Chairman Graves. Mr. Gregory?
    Mr. Gregory. I think it all boils down to we need to look 
back at our purposes of the river, of the river system. 
Obviously, I believe the main priority should be flood control, 
as well as being able to use the river for transportation of 
goods and services. Other countries are understanding that 
infrastructure equals jobs and better opportunities for 
everybody. Other countries are racing to get their 
infrastructure built so they can compete against us. We need to 
be taking the same approach and really taking a hard look at 
what our infrastructure needs and work towards getting it back 
to snuff.
    The marine highway was brought up, making the stretch 
between Kansas City and Sioux City a designated marine highway. 
I believe it is my understanding that that would also make more 
funding available for this stretch that would give people, 
Missouri River and basin-wide, a better advantage to moving 
their goods and services to world markets.
    Again, I thank you for the opportunity.
    Chairman Graves. Mr. Euler?
    Mr. Euler. I appreciate the opportunity to visit with you 
today about these issues.
    Once again, if the district would just state that if flood 
control is not the priority any longer of the authorized 
purposes, then we would ask that funding be provided to allow 
these drainage districts to react to the actions that are taken 
by the Corps of Engineers so we can continue to provide the 
safety and the economic benefits behind the levee structure 
that the levees were designed for.
    I appreciate the opportunity.
    Chairman Graves. With that, I once again want to thank all 
of our witnesses for appearing today.
    Ms. Farhat, you touched a nerve actually in your closing, 
and I agree with you that local rainfall has a huge impact when 
it comes to flooding downstream.
    But the fact of the matter is, too, and this comes into 
management of the reservoirs and how much you are keeping the 
reservoirs to, snowmelt has an impact too, and we don't know 
what the rainfall is going to be downstream, but we do know 
what the snowmelt is going to be, and that is a fact. I think 
it has to be managed, and the decisions by the Corps have to 
take that into account, and I think that was a colossal 
mismanagement of the reservoirs in terms of knowing what that 
snowmelt was going to be and hoping that we had normal 
rainfall. There is no such thing as normal rainfall in the 
Midwest. It is either going to be a lot or less, and it has a 
huge impact on those folks up and down the river.
    And I know you know that, and I hope you and your staff 
take away from this a little bit better understanding maybe, 
but I hope that you continue to be acutely aware of how this 
affects businesses and farmers and lives and homes and 
livelihoods.
    But I particularly want to thank you for appearing here 
today, and all of the witnesses for appearing here today. I am 
very disappointed in the fact that Fish and Wildlife ducked 
this hearing, and that is exactly what they did. I am very 
frustrated by that. But what we will do is take the proceedings 
today, and we will obviously use them to move forward when it 
comes to appropriations bills and to possible pieces of 
legislation that directly affect how things are done in the 
future, and we will also turn this over to the Resources 
Committee, all of our information, and what we have done in the 
past as well.
    But with that, I would ask unanimous consent that members 
and the public have five legislative days to submit additional 
comments and materials for the record. Without objection, that 
is so ordered.
    And with that, this hearing is adjourned. Thank you.
    [Whereupon, at 11:53 a.m., the Committee was adjourned.]


                            A P P E N D I X


[GRAPHIC] [TIFF OMITTED] 82514.001

[GRAPHIC] [TIFF OMITTED] 82514.002

[GRAPHIC] [TIFF OMITTED] 82514.003

[GRAPHIC] [TIFF OMITTED] 82514.004

    Chairman Graves and members of the United States House 
Committee on Small Business:

    Thank you for this opportunity to provide testimony 
regarding management of the Missouri River and the needs of 
small businesses. As Vice-President of the Missouri Levee and 
Drainage District Association, I represent levee and drainage 
districts, businesses, associations and individuals interested 
in the activities and issues surrounding the Missouri River and 
its tributaries. I understand the importance of this 
committee's work as it relates to the protection of small 
businesses across our country. I am honored to have this 
opportunity to provide comments on behalf of the levee 
association's membership and fellow Missourians who are 
impacted by the operation of the Missouri River.

    The bottomlands along the Missouri River include thousand 
of acres of highly productive farmland. Many family farm 
businesses rely on levees constructed by landowners, levee 
districts and the U.S. Army Corps of Engineers for protection 
from flooding. 100,000 acres of Missouri bottomland soil can 
produce enough calories to feed over 1 million people for an 
entire year. This productive soil makes up the backbone of the 
local economy. As the bottomland farms succeed, so does the 
local economy. There are spillover impacts from the success of 
the farm businesses. Many small businesses benefit from the 
production and operation of bottomland farms. The purchases of 
tractors, trucks, and other machinery, along with labor and 
other inputs have ripple effects throughout our economy.

    I want to be very clear; it is the productive soils and the 
land that provides the foundation for small business growth and 
success throughout our agricultural communities. Without the 
highly productive soil and land the small businesses in the 
fruitful Missouri River bottoms would be far less successful. 
We have seen dramatic increases in farmland values over the 
past several years. According to the Federal Reserve Bank of 
Kansas City, first quarter farmland values in the Kansas City 
District have posted double-digit annual gains for three 
straight years. While the general economy has struggled, 
agriculture and small businesses tied to agriculture have held 
their own. Agriculture will likely be the industry leading our 
country out of its economic woes. It has held true in the past. 
This is why it is vitally important to keep our best soils in 
production and this is why we should protect these soils from 
flooding.

    Flood control is vitally important to these businesses. 
Small businesses in the economic chain, from the farmer to the 
small businesses he impacts, rely on the U.S. Army Corps of 
Engineers to provide critical flood control along the Missouri 
River. Flooding has huge impacts on small businesses and the 
economy. Because floods are so devastating, flood control is 
one of the greatest needs for communities and small businesses 
impacted by Missour River operations.

    Unfortunately, the U.S. Army Corps of Engineers no longer 
seems to share the same belief concerning the importance of 
flood control for the small businesses impacted by their 
operations. In fact, we rarely even hear the Corps talk about 
flood control. The term flood control has all but been stripped 
from their vocabulary. Instead of flood control, we now hear 
the Corps talk about flood risk reduction. The Corps of 
Engineers is working hard on programs designed to reduce the 
federal government's risk and responsibility associated with 
flooding and flood recovery. But there is very little focus on 
actually reducing the risk of flooding.

    The Corps' new approach to flood control has little to do 
with keeping the River between its banks. Their emphasis is on 
moving people and businesses out of the floodplain, buying 
productive farmland, setting back or removing levees and 
allowing the River to run wild. This is not an approach to 
flood control. It is a recipe for disaster.

    We understand floods will happen and we cannot control 
every flood. But the goal should be to keep the River between 
its banks and control flooding as much as possible. Even if we 
were able to remove all infrastructure from the floodplains, 
(homes, businesses, roads, power lines, pipe lines, bridges and 
more), the remaining farmland is worth protecting with levees 
and other flood control projects.

    Members of the Missouri Levee and Drainage District 
Association have many concerns regarding the Corps' operation 
of the River. Shallow Water Habitat projects, Dike Notching, 
the threat of a manmade Spring Rise each year and land 
acquisition programs top the list of concerns. The Corps levee 
inspection program and the FEMA levee certification program 
also concern our members and will have impacts on small 
business and the ability to provide proper flood control.

    Finally, it is our hope your committee and the United 
States Congress will provide better oversight of the Corps of 
Engineer's activities. Federal agencies with no oversight from 
congress have a long leash and high level of arrogance. This 
has been the case with the ongoing Shallow Water Habitat 
projects. Even though the Missouri Clean Water Commission 
decided not to provide a 401 certificate, the Corps of 
Engineers has decided to dump dredged spoils from their 
projects directly into the Missouri River. We believe this 
shows a great lack of respect to the Missouri Clean Water 
Commission and the stakeholders who overwhelmingly opposed the 
soil dumping.

    The work of your committee is very important. I appreciate 
your service to our nation and your willingness to hold this 
hearing here today. I hope you will encourage the Corps of 
Engineers to make flood control their number one priority and 
provide the protection the small businesses need to grow and 
prosper. The land and productive soils along the Missouri River 
is one of our country's greatest assets. Providing flood 
control to the land is critical to small businesses throughout 
the Missouri River Valley and the nation. The Missouri Levee 
and Drainage District Association is ready and willing to help 
you as we work together to protect our small businesses and 
grow our economy.

    Thank you,

    Lanny Frakes, Vice-President
    Missour Levee and Drainage District Association
                         DEPARTMENT OF THE ARMY


                      U.S. ARMY CORPS OF ENGINEERS


                           PREPARED STATEMENT


                                   OF


                           JODY FARHAT, P.E.


         CHIEF, MISSOURI RIVER BASIN WATER MANAGEMENT DIVISION


                         NORTHWESTERN DIVISION


                                 BEFORE


                      COMMITTEE ON SMALL BUSINESS


                 UNITED STATES HOUSE OF REPRESENTATIVES


                                   ON


                      ``Missouri River Management:


               Does It Meet the Needs of Small Business?


                            AUGUST 21, 2013

    Mr. Chairman and Members of the Committee, I am Jody 
Farhat, Chief of the Missouri River Basin Water Management 
Division of the Northwestern Division of the U.S. Army Corps of 
Engineers (Corps). I am pleased to be here today to discuss our 
roles, responsibilities, and efforts on managing the Missouri 
River Mainstem Reservoir System and on the importance of the 
river to small businesses and rural communities.

    Over the past several years, the Missouri River basin has 
experienced a wide range of climatic conditions, from the 
record runoff in the upper basin in 2011, to flash drought in 
2012. Although a drought still affects much of the basin, 
conditions have improved during the spring and summer of 2013, 
but reservoir levels behind the large upper three dams remains 
drawn down: Fort Peck is currently drawn down over 8 feet; 
Garrison, over 2 feet; and, Oahe over 5 feet. Currently, all 
authorized purposes for the System are being served at reduced 
levels except for flood control, which is enhanced when 
reservoir levels decline due to drought.

    The Missouri River Mainstem Reservoir System is comprised 
of six dam and reservoir projects; hydroelectric power plants; 
levees (both federal and non-federal); and a 735-mile 
navigation channel extending from Sioux City, Iowa to the mouth 
near St. Louis, Missouri. The Corps is charged with 
responsibility managing this complex and extensive system for 
eight authorized purposes: flood control, navigation, 
irrigation, hydropower, water quality control, water supply, 
recreation, and fish and wildlife enhancement. In addition, 
operation of the System must also comply with other applicable 
federal statutory and regulatory requirements, including the 
Endangered Species Act. All of the citizens we serve in the 
Missouri River Basin benefit in one or more ways from this 
system.

    Cycles of flooding and severe drought have always been a 
major part of the Missouri River Basin hydrology. The six Corps 
dams on the mainstem of the Missouri River from the largest 
system of reservoirs in the United States. The reservoirs are 
designed to capture and store mountain snowpack, plains 
snowpack, and rainfall runoff from the upper Missouri River 
Basin in the spring of the year providing flood protection for 
over two million acres of land in the floodplain. Water stored 
in the reservoirs is then utilized during the remainder of the 
year to serve the other seven authorized purposes. The bank 
stabilization and navigation project along the lower Missouri 
River downstream of Ponca State Park, Nebraska keeps the 
channel from meandering and make it more reliable for 
navigation. For example, an extensive system of levees (most 
non-federal) has been constructed from Omaha, Nebraska to St. 
Louis, Missouri, with levees on one or both banks for nearly 
the entire reach. These levees provide a measure of flood risk 
reduction to the adjoining developed land and nearby 
structures.

    The Missouri River Master Water Control Manual (Master 
Manual) is the guide used by the Corps to regulate the six dams 
on the mainstem of the Missouri River: Fort Peck, Garrison, 
Oahe, Big Bend, Fort Randall, and Gavins Point. First published 
in 1960 and subsequently revised during the 1970s, the Master 
Manual was revised in March 2004 to include more stringent 
drought conservation measures, and again in 2206 to include 
technical criteria for a spring pulse from Gavins Point Dam for 
the benefit of the endangered pallid sturgeon. Neither the 2004 
nor the 2006 revisions to the Master Manual changed the volume 
of storage in the system reserved for flood risk reduction or 
the manner in which that storage is regulated. The Corps does 
not store water in the reservoirs specifically for the 
endangered and threatened species and the Master Manual storage 
allocations were not altered to facilitate the spring pulses.

    The construction and operation of the six mainstem 
reservoirs and other features of the System, along with the 
presence of federal and non-federal levees and other measures 
by local interests, reduced the extent the natural floodplain 
and altered its ecosystem. Current regulation of the System in 
accordance with the Master Manual to serve authorized project 
purposes is dependent on successful implementation of the US 
Fish and Wildlife Service's 2003 Amended Biological Opinion, 
BiOp. Implementation of the BiOp is accomplished through the 
Missouri River Recovery Program which includes the following 
elements: habitat construction including emergent sandbar 
habitat and shallow water habitat, flow modifications, 
propagation/hatchery support, research, monitoring and 
evaluation, and adaptive management. Stakeholder participation 
in the Missouri River Recovery Program is essential in order to 
ensure that public values are incorporated into the decision 
process. To that end, the Missouri River Recovery 
Implementation Committee has been established in accordance 
with Section 5018 of WRDA 2007 and is comprised of diverse 
group of advisory stakeholders.

    The Corps also considers input from affected interests and 
other agencies when making water management decisions to best 
serve the authorized project purposes. An annual operating 
plan, or AOP, is prepared each year, based on the water control 
criteria contained in the Master Manual, in order to describe 
potential reservoir regulation of the System for the current 
operating year under a variety of water supply conditions. 
Following the release of the draft AOP each fall, public 
meetings are held throughout the basin to review the plan, take 
comments and answer questions. Attendees at our public meetings 
include state, Tribal and local government officials, 
interested citizens, and a variety of small business including 
farmers, marina operators, navigators and more. After taking 
into consideration comments received on the draft, the final 
annual operating plan is released, generally in December.

    Communication with affected stakeholders continues 
throughout the year via press releases, monthly basin update 
calls, information sharing through our website, and meetings 
with various stakeholders and interest groups at their request.

    The Corps strongly supports small businesses in the work we 
do on the river, both for repair and maintenance of the Corps 
facilities, including the work that was done following the 
record 2011 flood, and construction activities required by the 
Missouri River Recovery Program.

    For example, maintenance work and repair of the Bank 
Stabilization and Navigation Project is often contracted out to 
local small businesses. Even when the Corps does this work in-
house using our hired labor crews, a mix of large and small 
businesses are still needed to provide material, equipment and 
fuel. Most if not all the funding for the operation and 
maintenance of the Bank Stabilization and Navigation Project 
thus finds its way back to the local economies. Because the 
greatest portion of this work and our offices are in rural 
areas, small businesses benefit.

    Completed and ongoing projects within the Missouri River 
Levee System have been awarded to small businesses.

    As we develop Missouri River Recovery projects, we 
coordinate with land owners and levee districts upstream, 
downstream and on the opposite bank from the proposed project 
to ensure we understand their concerns and requirements. It is 
important to note that Missouri River Recovery projects are 
designed and constructed consistent with other uses of the 
river such as navigation or flood control. Many of these 
projects are built by small businesses.

    We recognize that the operation of the Missouri River 
Mainstem Reservoir System impacts the lives and livelihoods of 
those who work and live along the river. We remain committed to 
operating the Mainstem System to serve the authorized project 
purposes, in a way that balances the competing needs of the 
Basin, and to meet our responsibilities to federally recognized 
Tribes and comply with environmental laws including the 
Endangered Species Act. We will continue to work closely with 
you and all the Missouri River Basin stakeholders in that 
effort.

    We appreciate having the opportunity to be here today, and 
I look forward to hearing the testimony from small business 
leaders, and any ideas they may have to improve our service to 
the citizens of the Missouri River Basin.

    Mr. Chairman, this concludes my testimony. I would be 
pleased to answer any questions you or the Members of the 
Committee might have.
            Testimony of the Missouri Farm Bureau Federation


                               Before the


                   House Committee on Small Business


         ``Missouri River Management: Does It Meet the Needs of


                     Small Business Stakeholders?''


                            August 21, 2013


                      Presented by: Jason Gregory


    Good morning, Mr. Chairman and members of the Small 
Business Committee. My name is Jason Gregory, and I am a fourth 
generation farmer. My wife, Beth, and I raise corn, soybeans, 
feeder cattle and children (Bailey and BreAnne) near Easton in 
northwest Missouri. I am speaking on behalf of the Missouri 
Farm Bureau Federation. I serve on the Buchanan County Farm 
Bureau Board of Directors, and my wife and I serve on the state 
organization's Young Farmers and Ranchers Committee.

    Thank you for holding this field hearing. It comes as no 
surprise to the Chairman, or other members of the Small 
Business Committee, that management of the Missouri River is 
both complex and controversial. Widespread agreement is elusive 
as the U.S. Army Corps of Engineers (Corps) attempts to manage 
for eight diverse Congressionally authorized purposes (flood 
control, navigation, water supply, irrigation, hydroelectric 
power, water quality, recreation and fish/wildlife).

    The Missouri River is 2,341 miles long with a basin 
covering 529,350 square miles in ten states (Nebraska, Montana, 
Wyoming, South Dakota, North Dakota, Kansas, Iowa, Colorado, 
Minnesota and Missouri). Elevation of the Missouri River drops 
from 14,000 foot peaks to about 400 feet at its confluence with 
the Mississippi River in St. Louis. We could talk all day about 
our recent experiences with both floods and droughts. As you 
know, this area was hit hard by flooding in 2011 and is 
extremely dry as we speak. To be honest, I'm not sure what a 
``normal'' year is anymore.

    My comments will touch on several topics important to hose 
who not only live along the Missouri River but are protected by 
the system of levees constructed over the past several decades. 
While you aren't likely to read this in a paper or hear it on 
the news, construction of the main stem reservoirs and 
implementation of the Bank Stabilization and Navigation Program 
(BSNP) are a success story. Over the 1938-2001 period, 
estimated accumulated flood control damages prevented by the 
system are $24.8 billion.

    There are six areas in which I will provide brief comments:

          1. Passage of the Water Resources Development Act 
        (WRDA) is critical to the future of our inland waterway 
        system. Agricultural exports remain a bright spot and 
        it's important we remain competitive in world markets. 
        Other nations understand the concept of competitive 
        advantage and are moving quickly to upgrade ports and 
        waterways. We need to modernize our locks and dams and 
        provide shippers with assurances that navigation 
        channels on the Mississippi, Missouri and other rivers 
        are reliable. Congress needs to pass WRDA this year.

          2. There must be adequate annual funding for the Bank 
        Stabilization and Navigation Program. The Missouri 
        River is highly engineered and thus requires ongoing 
        maintenance. Flood control remains paramount and 
        Congress must appropriate sufficient funding to ensure 
        the integrity of federal and non-federal levees, flood 
        gates, revetments, dikes and other structures. Levees 
        not only protect highly productive crop land but also 
        homes, businesses, and critical infrastructure such as 
        roads, bridges, railroad tracks, sewage treatment 
        facilities, water wells, and power plants.

          3. Common sense must prevail on the Missouri River 
        Recovery Program (MRRP). Stakeholders from throughout 
        the Missouri River Basin are working with federal and 
        stage agencies to address management challenges. 
        Dialogue is useful but doesn't erase agendas. We will 
        always fight the efforts of those who ignore the 
        importance of protecting infrastructure by seeking to 
        return the Missouri River to a perceived natural state 
        of an era long gone. This includes objecting to 
        taxpayer dollars being spent on unnecessary projects 
        such as the Missouri River Ecosystem Restoration Plan 
        and the Missouri River Authorized Purposes Study. We 
        applaud the efforts of Chairman Graves, Congressman 
        Luetkemeyer and other members of the Missouri 
        Congressional delegation for leading efforts to defund 
        these programs.

          4. The spring pulse should be shelved permanently. 
        Scientific studies have failed to prove the benefit of 
        these man-made spring rises and there is no reason to 
        experiment further with flow modification.

          5. Congress should prevent soil dumping in 
        conjunction with the creation of shallow water habitat. 
        Although not convinced of the scientific benefits of 
        constructing chutes along the Missouri River under any 
        circumstances, it makes no sense to pump mechanically 
        excavated soil directly into the Missouri River. This 
        ignores best management practices, contradicts 
        enforcement actions taken by the Missouri Clean Water 
        Commission and increases nutrient-rich sediment flowing 
        to the Gulf of Mexico. We support Congressman King's 
        efforts to prevent further soil dumping and are pleased 
        his amendment was adopted by the House in its version 
        of the FY2014 Energy and Water Appropriations Act.

          6. The Endangered Species Act (ESA) should be 
        improved to better reflect the human and economic 
        impacts of listing decisions. The ESA is too rigid and 
        relies on regulation to protect imperiled species. 
        Landowners, and other affected parties, should be 
        viewed not as the source of the problem but as a part 
        of the solution.

    In conclusion, we don't need more experiments, mosquitoes 
or publicly-owned land in the Missouri River Basin. We must 
minimize the effects of weather extremes by protecting lives 
and infrastructure, make wise investments in the BSNP and the 
inland waterway system, and manage flows for human needs, and 
where possible, enhancement of fish and wildlife habitat.
                  Prepared Statement of Joel R. Euler


                Given to the Committee on Small Business


                  on Wednesday August 21, 2013, at the


                     City of St. Joseph City Hall,


                          St. Joseph, Missouri


    Greetings

    My name is Joel Euler and I am an attorney with an office 
located in Troy, Kansas, approximately 10 miles west of St. 
Joseph. I am here before you today as an attorney for the South 
St. Joseph Drainage and Levee District, which is one of several 
districts I represent along the Missouri River. The District is 
located adjacent to the Missouri River South of United States 
Hwy. 36, on the western edge of the City of St. Joseph and in 
Buchannan County, Missouri. The District was established more 
than 40 years ago and protects agricultural, residential, 
recreational, commercial and industrial properties.

    The district is operated by a five-member Board of 
Directors who are elected by individuals who own real estate 
within the confines of the district. The makeup of the 
Directors includes both individual and corporate 
representatives. The District is responsible for the 
maintenance and operation of the Levee and drainage structures 
in the district and as such plays a pivotal role in the 
protection of the various entities behind the structure. In 
2011, invested capital in the district totaled in excess of Two 
(2) billion dollars.

    In about 1998, the Corps of Engineers made a review of the 
levee structure in the district and determined modifications 
were needed to allow the structure to maintain its protective 
capability. Since that time the District and other local units 
of government have been working with the Corps of Engineers to 
finalize the modifications to be made, however, progress is 
severely hampered because the Corps of Engineers is unable to 
regularly obtain the funding necessary to complete the design 
phase of the project and move the same to construction. At 
present it is my understanding that funds have not been 
allocated for this project in the upcoming budget.

    I understand that the purpose of this hearing is to take 
input with regard to the authorized purposes that the Corps of 
Engineers uses to manage the Missouri River System and discuss 
which purpose the District believes is most important. 
Unequivocally the District considers the most important purpose 
to be flood control. Improper flood control has a negative 
impact on every activity conducted behind the structure.

    The Individual who lives behind the structure must maintain 
a constant vigil during times of flooding and high water to 
ensure that his home and property are safe. This worry is in 
addition to the everyday stresses which an individual feels and 
often takes a heavy toll both financially and emotionally on 
citizens.

    The Farmer who lives and works the ground behind the 
structure is negatively affected when releases of water are 
sustained for long periods. This causes saturation to the farm 
ground and during those times when the river level is so high 
that the floodgates must be closed causes ponding of water 
behind the structure which destroys crops and makes farming 
operations difficult, if not impossible.

    To the Industrial and Commercial businesses behind the 
structure, the financial costs associated with continued high 
water on the river take a different form. Each time there is an 
extended high water event or the threat of flooding the 
business must modify its operation to allow for potential 
evacuation and must make preparations in the event of flooding. 
Preparations include changing production schedules, removing 
raw materials, products and equipment from the facility and 
activities of a similar nature. In some instances during 
sustained high water events, flood fighting operations restrict 
traffic and rail flow causing a shortage of raw materials which 
cost not only production but profit for the company.

    In addition, the condition of the levee and continued flood 
threats take a toll on businesses in the form of increased 
costs associated with flood fight preparation, flood and 
business loss insurance and other expenses associated with a 
potential flood event. While the event may never occur, good 
business practice requires planning for the event.

    For Potential business concerns about the operation of the 
levee structure and the Missouri River System as a whole can be 
a major consideration when determining whether or not to locate 
in the District. While some companies might choose to try to 
erect structures at a level where they will not be affected by 
high water, should the levee breach, this is cost prohibitive 
in most instances and as such creates a negative impact on 
business. In essence, if continued high water events occur they 
will act to chill the interest in locating within the District 
and as everyone is aware, competition for business is already 
keen and communities cannot stand many negatives with regard to 
their industrial areas.

    With regard to the smallest businesses, the mom and pops, 
these businesses are almost completely dependent upon work that 
is derived from supporting the larger industry. The businesses 
are often specialized and once the larger business leaves the 
small businesses have no customers to serve and as such, close 
as well.

    In closing, the District believes that unless flood control 
was made the primary emphasis of the operation of the Missouri 
River System, at some point flooding and high water events will 
occur with such frequency and have such an impact on businesses 
of all sizes that the real estate located behind the levee 
structures will no longer be a viable location for businesses 
to locate thus causing a negative impact to the community.
    I am happy to answer any questions you might have.

    Respectfully Submitted:

    Joel R. Euler
    Attorney for the South St. Joseph Drainage and Levee 
District

                                 <all>

</pre></body></html>
